APPENDIX

"A"

U.S. DISTRICT COURT OPINION

Case 6:18-cv-00988-ACC-EJK Document 17 Filed 03/03/20 Page 1 of 10 PagelD 103

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION
KELSEY VIDEL COFFEE,
Petitioner,
Case No: 6:18-cv-988-Orl-22EJK
(6:14-cr-146-Orl-22EJK)

v.

UNITED STATES OF AMERICA,
Respondent.
ORDER
THIS CAUSE is before the Court on Petitioner Kelsey Videl Coffee's Motion to
Vacate, Set Aside, or Correct Sentence ("Motion to Vacate," Doc. 1) filed under 28 U.S.C.
§ 2255 and Supplement to the Motion to Vacate ("Supplement," Doc. 10). Respondent
filed a Response to the Motion to Vacate ("Response," Doc. 8) and a Response to the
Supplement ("Response to Supplement," Doc. 15) in compliance with this Court's
instruction. Petitioner filed a Reply to the Response and Response to Supplement
("Reply," Doc. 16).
Petitioner asserts ten grounds for relief. For the following reasons, the Motion to
Vacate and the Supplement are denied.
I. Procedural History
A grand jury charged Petitioner by superseding indictment with two counts of
aiding and abetting in Hobbs Act robbery (Counts Two, Four, Five, Six, and Eight) in
violation of 18 U.S.C. § 1951(a) and two counts of aiding and abetting in the use of a

Case 6:18-cv-00988-ACC-EJK Document 17 Filed 03/03/20 Page 2 of 10 PagelD 104

firearm that was brandished during and in relation to Hobbs Act robbery (Counts Three
and Seven) in violation of 18 U.S.C. § 924(c)(1)(A). (Criminal Case No. 6:14-cr-146-Orl22EJK, Doc. 78.J1 A jury acquitted Petitioner of Counts Two and Three and found him
guilty of Counts Four through Eight. (Criminal Case, Doc. 127.) The Court sentenced
Petitioner to concurrent 150-month terms of imprisonment for Counts Four, Five, Six and
Eight a and to a consecutive 84-month term of imprisonment for Count Seven. (Criminal
Case, Doc. 196.) Petitioner appealed, and the Eleventh Circuit Court of Appeals affirmed.
(Criminal Case, Doc. 203.)
II. Legal Standard
Section 2255 allows federal prisoners to obtain collateral relief under limited
circumstances:
A prisoner in custody under sentence of a court established by Act of
Congress claiming the right to be released upon the ground that the
sentence was imposed in violation of the Constitution or laws of the United
States, or that the court was without jurisdiction to impose such sentence,
or that the sentence was in excess of the maximum authorized by law, or is
otherwise subject to attack, may move the court which imposed the
sentence to vacate, set aside or correct the sentence.
28 U.S.C. § 2255(a). To obtain this relief, a petitioner must "clear a significantly higher
hurdle than would exist on direct appeal." United States v. Frady, 456 U.S. 152,166 (1982)
(rejecting the plain error standard as not sufficiently deferential to a final judgment). "[I]f
the petitioner 'alleges facts that, if true, would entitle him to relief, then the district court
should order an evidentiary hearing and rule on the merits of his claim.'" Aron v. United

1 Criminal Case No. 6:14-cr-146-Orl-22EJK will be referred to as "Criminal Case."
2

Case 6:18-cv-00988-ACC-EJK Document 17 Filed 03/03/20 Page 3 of 10 PagelD 105

States, 291 F.3d 708,714-15 (11th Cir. 2002) (quoting Holmes v. United States, 876 F.2d 1545,
1552 (11th Cir. 1989)). In the event a claim is meritorious, the court "shall vacate and set
the judgment aside and shall discharge the prisoner or resentence him or grant a new
trial or correct the sentence as may appear appropriate." 28 U.S.C. § 2255(b).
III. Analysis
A.

Grounds One through Four

In Ground One, Petitioner contends trial counsel rendered ineffective assistance
by failing to object to the verdict form submitted to the jury. (Doc. Nos. 1 at 4; 1-1 at 2-3.)
To support this ground, Petitioner notes that verdict form erroneously indicated he was
charged with "robbery in violation of 924(c)" as to Count Seven. (Doc. 1-1 at 2-3.)
Petitioner argues that, as a result, the jury returned a guilty verdict on robbery, for which
he was not charged, versus the § 924(c) charge, yet the Court sentenced him for the §
924(c) count. (Id.) Similarly, in Grounds Two, Three, and Four, Petitioner complains that
the § 924(c) conviction violates his right to due process, right to a trial by jury, and right
against cruel and unusual punishment.2 (Doc. Nos. 1 at 5-8.)
Petitioner has not established that prejudice resulted. The Court instructed the jury
multiple times about the charges and the parties advised the jury several times that there

2 It is not clear whether Petitioner intended to raise Grounds Two through Four as
claims of ineffective assistance of counsel. The Court will consider them as claims of
ineffective assistance of counsel because they are all premised on the erroneous verdict
form to which counsel did not object. To the extent Petitioner did not intend to raise them
as claims of ineffective assistance of counsel, they are without merit and denied.
Petitioner has not shown that he was denied his right to due process or a jury trial or that
his conviction and sentence for the § 924(c) charge resulted in cruel and unusual
punishment.
3

Case 6:18-cv-00988-ACC-EJK Document 17 Filed 03/03/20 Page 4 of 10 PagelD 106

were two firearm counts, including Count Seven. As the Eleventh Circuit Court of
Appeals reasoned on direct appeal:
First, it does not appear that the jurors were confused and thought they
were convicting the defendants of "robbery" on Count 7. In the absence of
any reason to believe otherwise (and none has been suggested), we
presume the jury was paying attention when: (a) the district court read the
superseding indictment to the jury pool during voir dire, and it correctly
sets out that Count 7 was for "using a firearm during and in relation to"
robbery of the Sweetbay Market; (b) both the government and defense
counsel repeatedly told the jury during their opening statements and
closing arguments that the six robbery counts were separate and distinct—
and required different kinds of proof—from the two firearm counts in
Counts 3 and 7 (the former of which was correctly described on the verdict
form); (c) the jurors were given a copy of the superseding indictment and
specifically told (by defense counsel) to be sure and "match ... up" the two
groups of offenses; and (d) the district court gave correct final instructions
on the law and told the jurors yet again that the two firearm charges "in
counts three and seven" were different than the robbery counts (and each
juror received a written copy of the jury instructions). Moreover, the jury's
question during deliberations ("[Does] the offense of using a firearm which
would violate 18 U.S.C. § 924 require the person to have actual physical
possession of the firearm?") suggests the jurors understood and
appreciated the distinction between a Section 924 firearm violation and a
Section 1951 robbery charge. On this record, it is doubtful that the jurors
were confused and thought they were convicting the defendants of a
"robbery" offense in Count 7. And if the jurors were not confused, and
knew they were finding the defendants guilty of a Section 924(c) charge,
amending the written judgments to accurately reflect that offense was not
a "substantive alteration" of the jury's verdict.
Second, even if we were to agree with the defendants that the record is at
least ambiguous with respect to what the jurors found on Count 7, there
was no prejudice on the facts of this case.
United States v. Davis, 841 F.3d 1253, 1261-62 (11th Cir. 2016). The Eleventh Circuit
concluded that the erroneous verdict form "did not in any way confuse the jury, or, even
if it did,... could not have possibly prejudiced the defendants." Id. at 1265. Consequently,
a reasonable probability does not exist that the outcome of the trial would have been
4

Case 6:18-cv-00988-ACC-EJK Document 17 Filed 03/03/20 Page 5 of 10 PagelD 107

different had counsel sought to correct the verdict form as to Count Seven to reflect the
offense was for using a firearm in relation to a crime of violence. Accordingly, Grounds
One through Four are denied.
B.

Grounds Five, Six, and Seven

In Grounds Five, Six, and Seven, Petitioner asserts his sentence for the § 924(c)
conviction is unconstitutional because it is arbitrary, cruel and unusual, and violates the
separation of powers doctrine. (Doc. 1 at 9-ll.) Respondent argues that these grounds are
procedurally barred because they were not raised on appeal. (Doc. 8 at 15.)
"A federal criminal defendant who fails to preserve a claim by objecting at trial or
raising it on direct appeal is procedurally barred from raising the claim in a ' 2255 motion,
absent a showing of cause and prejudice or a fundamental miscarriage of justice." Rivers
v. United States, 476 F. App'x 848, 849 (11th Cir. 2012). Procedural default may be excused
upon a showing of cause and prejudice or a fundamental miscarriage of justice. Mills v.
United States, 36 F.3d 1052,1055 (11th Cir. 1994). To demonstrate cause for failing to raise
a claim in an earlier proceeding, a petitioner must establish "'some external impediment
preventing counsel from constructing or raising the claim."' High v. Head, 209 F.3d 1257,
1262-63 (11th Cir. 2000) (quoting McCleskey v. Zant, 499 U.S. 467, 497 (1991)). To show
"prejudice," a petitioner must establish that there is "at least a reasonable probability that
the result of the proceeding would have been different." Henderson v. Campbell, 353 F.3d
880, 892 (11th Cir. 2003). A petitioner may demonstrate application of the fundamental
miscarriage of justice exception by demonstrating "actual innocence." McKay, 657 F.3d at
1196. "'[AJctual innocence' means factual innocence, not mere legal insufficiency." Id. at

5

Case 6:18-cv-00988-ACC-EJK Document 17 Filed 03/03/20 Page 6 of 10 PagelD 108

1197 (quoting Bousley v. United States, 523 U.S. 614, 623 (1998)) (emphasis in original).
Petitioner did not raise these grounds on direct appeal. Petitioner has not
demonstrated cause or prejudice or actual innocence to overcome his failure to do so.
Thus, these grounds are procedurally barred from review.
Alternatively, these grounds are precluded by binding precedent. In United States
v. Davis, 139 S. Ct. 2319 (2019), the Supreme Court held that the residual clause in 18
U.S.C. § 924(c)(3)(B) related to the crime of violence portion of the statute is
unconstitutionally vague. Davis, 139 S. Ct. at 2336. Subsequent to Davis, the Eleventh
Circuit has implicitly recognized the constitutionality of the remainder of § 924(c),
reiterating that Hobbs Act robbery under 18 U.S.C. § 1951(a) qualifies as a crime of
violence under the elements clause in § 924(c)(3)(A). In re Cannon, 931 F.3d 1236, 1242
(11th Cir. 2019) (citing In re Saint Fleur, 824 F.3d 1337, 1340-41 (11th Cir. 2016) for the
proposition that Hobbs Act robbery in violation of 18 U.S.C. § 1951(a) qualifies as a crime
of violence under § 924(c)(3)(A)'s elements clause); see also United States v. McCain, 782 F.
App'x 860,862 (11th Cir. 2019) (holding that § 924(c) convictions were valid despite Davis
because "[o]ur binding precedent holds that Hobbs Act robbery—the statute underlying
both of McCain's predicate convictions —qualifies as a 'crime of violence' under §
924(c)(3)(A)'s elements clause."). Furthermore, the Eleventh Circuit has held that "aiding
and abetting Hobbs Act robbery categorically qualifies as a crime of violence under §
924(c)(3)(A)'s elements clause." Mack v. United States, No. 19-11138-H, 2019 WL 2725846,
at *1 (11th Cir. May 22, 2019) (citing In re Colon, 826 F.3d 1301, 1305 (11th Cir. 2016)).
Finally, the mandatory minimum sentence requirements of § 924(c) do not result in cruel
6

Case 6:18-cv-00988-ACC-EJK Document 17 Filed 03/03/20 Page 7 of 10 PagelD 109

and unusual punishment. See United States v. Reynolds, 215 F.3d 1210 (11th Cir. 2000)
(rejecting Eighth Amendment challenge to 18 U.S.C. § 924). Accordingly, Grounds Five,
Six, and Seven are denied.
C.

Grounds Eight, Nine, and Ten3

In Grounds Eight, Nine, and Ten, Petitioner maintains that his § 924(c) conviction
is unconstitutional in light of Davis, he is actually innocent of the offense, and § 924(c) is
indivisible. (Doc. 10 at 1-12.) To support these grounds, Petitioner argues that he was
convicted of violating § 924(c) during and in relation to the offense of conspiracy to
commit Hobbs Act robbery as charged in Count Six. (Doc. 10 at 1-11.)
Grounds Eight and Nine are premised on the fact that the superseding indictment
states in Count Seven that the use of the firearm occurred during "the offense of
conspiracy to commit robbery." The Eleventh Circuit has held that "conspiracy to commit
Hobbs Act robbery does not qualify as a 'crime of violence/ as defined by § 924(c)(3)(A),"
and a conviction under 18 U.S.C. § 924(c)(1)(A) predicated solely on conspiracy to commit
Hobbs Act robbery is invalid and must be vacated. Brown v. United States, 942 F.3d 1069,
1075-76 (11th Cir. 2019).
In this case, the superseding indictment charged in relevant part as follows:
COUNT SIX
On or about August 20,2013, in Hillsborough County, Florida, in die
Middle District of Florida, and elsewhere,

3 Grounds Eight, Nine, and Ten are the three additional grounds raised in
Petitioner's Supplement. See Doc. 10. The Court has renumbered the grounds for
purposes of this Order.
7

Case 6:18-cv-00988-ACC-EJK Document 17 Filed 03/03/20 Page 8 of 10 PagelD 110

KEENAN AUBREY DAVIS
and
KELSEY VIDEL COFFEE
the defendants herein, aiding and abetting each other, and other persons known to
the grand jury, did knozuingly and unlawfully obstruct, delay and affect commerce
as that term is defined in Title 18, United States Code, Section 1951, and the
movement of articles and commodities in such commerce by robbery, as
that term is defined in Title 18, United States Code, Section 1951, in that the
defendants did rob a Sweetbay Market establishment by unlawfully taking and
obtaining United States currency and property of such business. . . by means of
actual and threatened force, violence, and fear of injury, immediate, and future, to
the employees.
All in violation of Title 18, United States Code, Sections 1951(a) and
2.

COUNT SEVEN
On or about August 20,2013, in Hillsborough County, Florida, in the
Middle District of Florida, and elsewhere,
KEENAN AUBREY DAVIS
and
KELSEY VIDEL COFFEE
the defendants herein, aiding and abetting each other, and other persons
known to the grand jury, did knowingly use a firearm of unknown make,
model, and caliber, but described as a shotgun, that was brandished during
and in relation to the offense of conspiracy to commit robbery as charged in Count
Six above, ivhich allegations are re-alleged and incorporated by reference herein, a
crime of violence for which defendants may be prosecuted in a Court of the United
States.
All in violation of Title 18, United States Code, Section 924(c)(1)(A)
and Section 2.
(Criminal Case, Doc. 78 at 4-6) (emphasis added).
Although Count Seven of the superseding indictment erroneously referred to the
predicate offense in Count Six as "conspiracy to commit robbery," it is clear that

8

Case 6:18-cv-00988-ACC-EJK Document 17 Filed 03/03/20 Page 9 of 10 PagelD 111

Petitioner was not charged with conspiracy to commit robbery in Count Six. Instead,
Count Six alleged the offense of aiding and abetting the robbery of a Sweetbay Market.
Moreover, despite Count Six being improperly labeled in Count Seven as conspiracy to
commit robbery, Count Seven explicitly provided that the predicate offense was the one
"charged in Count Six above, which allegations are re-alleged and incorporated by
reference herein." (Id. at 6.)
In accordance with the superseding indictment, the Court instructed the jury that
it had to determine whether the Government proved all the elements Hobbs Act robbery
to find Petitioner guilty. (Criminal Case, Doc. 120 at 13-14.) With respect to the § 924(c)
charge, the Court instructed the jury that Petitioner could only be found guilty if it found
inter alia that Petitioner "committed the violent crime charged in Counts Two and Six of
the indictment, respectively... ."4 (Id. at 16.) The verdict, consistent with the superseding
indictment and jury instructions, reflected that Count Six was for the offense of Hobbs
Act robbery, not conspiracy to commit Hobbs Act robbery. Consequently, despite the
erroneous label of the predicate offense in Count Seven of the superseding indictment,
the offense for which Petitioner was convicted in Count Six, and that served as the
predicate offense for Count Seven, was aiding and abetting Hobbs Act robbery. As
discussed supra, the Eleventh Circuit has held that aiding and abetting Hobbs Act robbery
categorically qualifies as a crime of violence. Mack, 2019 WL 2725846, at *1. Accordingly,
Grounds Eight, Nine, and Ten are denied.

4 The parties agreed to refer to the superseding indictment as the indictment in the
verdict form. See Criminal Case, Doc. 188 at 231-32.
9

Case 6:18-cv-00988-ACC-EJK Document 17 Filed 03/03/20 Page 10 of 10 PagelD 112

Any of Petitioner's allegations not specifically addressed are without merit.
Accordingly, it is ORDERED and ADJUDGED:
1.

Petitioner's Motion to Vacate, Set Aside, or Correct Sentence (Doc. 1) is

DENIED, and this case is DISMISSED with prejudice.
2.

The Clerk of the Court shall enter judgment accordingly and will close this

3.

The Clerk of the Court is directed to file a copy of this Order in criminal

case.

case number 6:14-cr-146-Orl-22EJK and to terminate the motion (Criminal Case, Doc. 208)
pending in that case.
4.

This Court should grant an application for certificate of appealability only

if the Petitioner makes "a substantial showing of the denial of a constitutional right." 28
U.S.C. § 2253(c)(2). Petitioner has failed to make a substantial showing of the denial of a
constitutional right.5 Accordingly, a Certificate of Appealability is DENIED.
DONE and ORDERED in Orlando, Florida on March 3, 2020.

ANNE C. CONWAY .
United States District Judge

Copies furnished to:
Counsel of Record
Unrepresented Party
5 "The district court must issue or deny a certificate of appealability when it enters
a final order adverse to the applicant." Rules Governing Section 2255 Proceedings for the
United States District Courts, Rule 11(a).
10

APPENDIX
U.S. COURT OF APPEALS

"B"
I

OPINION

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-11883-H

KELSEY VIDEL COFFEE.
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.
Appeal from the United States District Court
for the Middle District of Florida
ORDER:
Kelsey Coffee is a federal prisoner serving a 234-month for aiding and abetting Hobbs Act
robbery, 18 U.S.C. §§ 1951(a) and 2, and use of a firearm during and in relation to a crime of
violence, 18 U.S.C. § 924(c)(1)(A). He moves for a certificate of appealability (“COA”) and leave
to proceed in forma pauperis (“IFP”) to appeal the denial of his 28 U.S.C. § 2255 motion to vacate
and later Fed. R. Civ. P. 59(e) motion to alter or amend the judgment. To merit a COA, Coffee
must demonstrate that “reasonable jurists would find the district court’s assessment of the
constitutional claims debatable or wrong.” Slack v. McDaniel, 529 U.S. 473,484 (2000). Coffee
has failed to make the requisite showing.
In Claims 1 through 4, Coffee argued that trial counsel was ineffective for failing to object
to the verdict form, and his 18 U.S.C. § 924(c) conviction violated his rights to due process, trial
by jury, and against cruel and unusual punishment. Although the verdict form mistakenly

identified the firearms offense in Count 7 as charging the defendants with “robbery, in violation
of 18 U.S.C. § 924(c),” the jurors heard several times throughout the trial that Count 7 was a
firearms offense and that the firearms offenses, in Counts 3 and 7,1 were separate and distinct from
the robbery offenses. Moreover, in Coffee’s direct appeal, we already determined that the record
was devoid of any evidence that jurors were confused and thought that they were convicting the
defendants of “robbery” on Count 7.
In Claims 5 through 7, Coffee argued that his sentence for his § 924(c) conviction was
unconstitutional because it was arbitrary, cruel and unusual, and violated the separation-of-powers
doctrine. Reasonable jurists would not debate the district court’s denial of these claims, as they
are procedurally defaulted for Coffee’s failure to raise them on direct appeal, and he has not shown
cause and prejudice or a fundamental miscarriage of justice to excuse his default. See Jones v.
United States, 153 F.3d 1305,1307 (11th Cir. 1998).
In Claims 8 through 10, Coffee argued that his § 924(c) conviction was unconstitutional in
light of United States v. Davis, 139 S.. Ct. 2319 (2019), he is actually innocent, and § 924(c) is
indivisible. Reasonable jurists would not debate the district court’s denial of these claims.
Although Count 7 of the superseding indictment erroneously referred to the predicate offense in
Count 6 as “conspiracy to commit robbery,” the record clearly establishes that Coffee was not
charged with conspiracy to commit robbery. Count 7 explicitly provided that the predicate offense
was the one charged in Count 6, and the verdict form correctly reflected that Count 6 was for the
offense of Hobbs Act robbery, not conspiracy to commit robbery. Despite the erroneous label of

r

Coffee was charged with five counts of aiding and abetting Hobbs Act robbery in Counts
2, 4 through 6, and 8. He was charged with violations of § 924(c)(1)(A) in Counts 3 and 7. The
predicate offense for Count 7 was aiding and abetting Hobbs Act robbery as charged in Count 6.
Coffee was convicted of Counts 4 through 8 and acquitted of Counts 2 and 3.
2

the predicate offense in Count 7, the offense that served as the predicate offense for Count 7 was
aiding and abetting Hobbs Act robbery, which qualifies as a crime of violence. See In re Colon,
826 F.3d 1301,1305 (11th Cir. 2016) (“Accordingly, Colon’s conviction for aiding and abetting a
Hobbs Act robbery qualifies as a ‘crime of violence’ under the § 924(c)(3)(A) use-of-force-clause,
without regard to the § 924(c)(3)(B) residual clause.”).
Finally, reasonable jurists would not debate the district court’s denial of Coffee’s Rule
59(e) motion, as he did not identify any newly discovered evidence or manifest errors of law or
fact warranting reconsideration.

See Arthur v. King, 500 F.3d 1335, 1343 (11th Cir. 2007).

Accordingly, Coffee’s COA motion is DENIED, and his IFP motion is DENIED AS
MOOT.
/s/ Adalberto Jordan
UNITED STATES CIRCUIT JUDGE

3

